<html>
<title> - [H.A.S.C. No. 111-157]SPACE POSTURE REVIEW AND THE FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-157]
 
    SPACE POSTURE REVIEW AND THE FISCAL YEAR 2011 NATIONAL DEFENSE 
  AUTHORIZATION BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 21, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
58-024                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0463746b44677177706c6168742a676b692a">[email&#160;protected]</a>  
  


                     STRATEGIC FORCES SUBCOMMITTEE

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
                Bob DeGrasse, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, April 21, 2010, Space Posture Review and the Fiscal 
  Year 2011 National Defense Authorization Budget Request for 
  National Security Space Activities.............................     1

Appendix:

Wednesday, April 21, 2010........................................    21
                              ----------                              

                       WEDNESDAY, APRIL 21, 2010
    SPACE POSTURE REVIEW AND THE FISCAL YEAR 2011 NATIONAL DEFENSE 
  AUTHORIZATION BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     3

                               WITNESSES

Butler, Robert J., Deputy Assistant Secretary of Defense for 
  Cyber and Space Policy, Office of the Secretary of Defense.....     6
Kehler, Gen. C. Robert, USAF, Commander, Air Force Space Command, 
  U.S. Air Force.................................................     5
Payton, Gary E., Deputy Under Secretary of the Air Force for 
  Space Programs, U.S. Air Force.................................     8
Sapp, Betty, Principal Deputy Director, National Reconnaissance 
  Office.........................................................     7

                                APPENDIX

Prepared Statements:

    Butler, Robert J.............................................    43
    Kehler, Gen. C. Robert.......................................    25
    Payton, Gary E...............................................    60
    Sapp, Betty..................................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Heinrich.................................................    78
    Mr. Lamborn..................................................    77
    SPACE POSTURE REVIEW AND THE FISCAL YEAR 2011 NATIONAL DEFENSE 
  AUTHORIZATION BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                         Washington, DC, Wednesday, April 21, 2010.
    The subcommittee met, pursuant to call, at 2:15 p.m., in 
room HVC-210, Capitol Visitors Center, Hon. James Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
   FROM RHODE ISLAND, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Langevin. Good afternoon. This hearing of the Strategic 
Forces Subcommittee will now come to order. Today we will take 
testimony on the Administration's Space Posture Review (SPR) 
and the Fiscal Year 2011 National Defense Authorization Request 
for National Security Space Activities.
    I want to, first of all, welcome all of our witnesses here 
today. First, we have General Bob Kehler, Commander of the U.S. 
Air Force Space Command. He is responsible for organizing, 
training, and equipping space and private space forces for the 
North American Aerospace Defense Command, the U.S. Strategic 
Command (STRATCOM), and other combatant commands around the 
world.
    Previously, he was Deputy Commander of STRATCOM. He served 
in the Air Force for over 35 years with tours in 
intercontinental ballistic missile (ICBM) operations, space 
launch and space operations, missile warning, and space 
control. During his service, he earned a Master's in Public 
Administration at the University of Oklahoma in Norman and a 
Master's in National Security and Strategic Studies from the 
Naval War College in Newport, Rhode Island. I have heard 
something about that, General. Great job there. So welcome, 
General. Appreciate you coming back and testifying here once 
again. It is great to be with you.
    Next, Mr. Robert Butler, Deputy Assistant Secretary of 
Defense for Cyber and Space, has agreed to appear before the 
committee today to discuss the interim Space Posture Review and 
the status of the Administration's work on space policy. Mr. 
Butler is a former Air Force officer with over 30 years of 
experience in intelligence and communications-computer systems. 
He earned an MBA from the University of Maryland. Welcome to 
you, Mr. Butler.
    Our third witness, Ms. Betty Sapp, Principal Deputy 
Director of the National Reconnaissance Office (NRO). It has 
become a tradition of the subcommittee to have an NRO witness 
discuss the unclassified aspects of your agency's mission at 
our yearly hearing. And Ms. Sapp is also a former Air Force 
officer and previously served as Deputy Under Secretary of 
Defense for Intelligence from 2007 to 2009. She earned an MBA 
from the University of Missouri, Columbia. Welcome to you, Ms. 
Sapp.
    Finally, we will hear from Mr. Gary Payton, Deputy Under 
Secretary of the Air Force, on the status of space acquisition 
programs. Mr. Payton retired as a colonel from the Air Force. 
In the course of his 23 years of service, he flew as a payload 
specialist onboard the Space Shuttle Discovery.
    He also directed the development of missile defense sensor 
and interceptor technologies while at the Strategic Defense 
Initiative Organization and, more recently, served as Deputy 
for Advanced Systems at the Missile Defense Agency. He has a 
Master's Degree in Aeronautical and Astronautical Engineering 
from Purdue University in Indiana. And I want to welcome you, 
Mr. Payton and, again, our entire panel here this afternoon.
    Well, in addition to thanking you for being with us here 
today, let me say that the United States has unparalleled space 
capabilities, as we all recognize. These capabilities are the 
underpinning of our military superiority, our global 
communications, and directly support our intelligence 
capabilities and, in fact, our way of life.
    At the same time, our space dominance underscores our 
dependence on space-based assets, which have become 
increasingly vulnerable as space becomes more congested and 
other countries develop the ability to hold at risk our 
satellites, our capabilities and, in fact, our operations.
    Several events in recent years have increased the urgency 
for an effective strategy to protect our military and economic 
advantages in space: as we know, in 2007, China conducted an 
anti-satellite (ASAT) test and, in 2008, a defunct Russian 
satellite collided with a commercial communications satellite, 
just by way of a couple of examples. These two events, which 
created unprecedented amounts of space debris, underscore the 
risk that an attack or accident could pose for continued 
effective operation and safety of U.S. space assets.
    Compiling the challenge, space is becoming more 
competitive. European nations are expanding their commercial 
and military space capabilities, while India, Japan, South 
Korea, Brazil, Iran, and North Korea are all developing 
indigenous space capabilities. These developments have created 
challenges for protecting our assets, but also opportunities 
for collaboration that could support U.S. strategic long-term 
goals and interests related to security, commercial, and the 
civil sectors.
    The National Defense Authorization Act of Fiscal Year 2009 
required the Secretary of Defense and the Director of National 
Intelligence to conduct a comprehensive review of our national 
security space posture. On March 12, 2010, the Administration 
submitted an interim report, but indicated that the final 
posture report cannot be completed until the White House 
establishes the broader, national space policy. As a result, we 
understand that the final national security posture review is 
not likely to be available until later this year, but we hope 
that when both the national policy and the Military Posture 
Review efforts are complete, they will have answers to key 
questions about our space capabilities.
    For example, how do we adequately defend or, if need be, 
reconstitute our capabilities? What are the potential gaps now 
and in the future? How can we maintain the industrial base to 
produce the needed satellites, ground equipment, software, and 
launch vehicles that we need? Can we find ways to deliver these 
products within established schedules and budgets? And finally, 
how can we strike the balance between developing technical 
solutions and pursuing diplomatic approaches to ensure that 
U.S. space assets are protected from attack or disruption?
    During the hearing today, we hope to hear a variety of 
perspectives on the challenges that we face in national 
security space.
    General Kehler, as you contemplate your responsibilities 
for organizing, training, and equipping our space forces, I am 
particularly interested in hearing what, in fact, keeps you up 
at night. What are the most important challenges that you face, 
and what should we be doing to ensure that you continue to 
deliver space capabilities to our warfighters?
    Mr. Butler, I look forward to hearing your insights on the 
progress that is being made to establish an overall national 
space policy and the work remaining to complete the national 
security space posture. We hope you can also share with us any 
additional findings from these ongoing efforts.
    Ms. Sapp and Mr. Payton, as you know, space acquisition 
programs have had a poor history of performance over the past 
decade. During your testimony today, I would like each of you, 
if you would, to provide us with your assessment of the 
progress being made to address cost and budget problems. Could 
you also identify the key challenges that remain in achieving 
stability in the acquisition process?
    And finally, I would be interested in the views of each our 
witnesses on how to best organize the national security space 
enterprise. Each of you has had a long and distinguished career 
in the field. We ask how we can better align the national 
security space enterprise to rapidly respond to the challenges 
that we face.
    With that said, I again want to welcome you here today. We 
appreciate you appearing before the subcommittee and we look 
forward to your testimony in just a few minutes. Before that 
though, before hearing from the witnesses, I would like to now 
turn to the Ranking Member for any comments that he may have. 
Mr. Turner is now recognized.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Mr. Chairman. I want to join you in 
welcoming General Kehler, Mr. Butler, Ms. Sapp and Mr. Payton. 
I want to thank you all for your dedication, your expertise, 
and for being here today to be able to answer some of our 
questions and to give us highlights of the issues that you 
think are the most important.
    I would like to start by highlighting the interim report on 
the Space Posture Review, SPR, that the committee received in 
March. It described today's on-orbit and soon-to-be-launched 
satellites, but doesn't describe a future space posture. One 
could provide the same critique of the interim SPR as Ranking 
Member McKeon did of the Quadrennial Defense Review (QDR). He 
said, ``We find a QDR that basically reinforces the status quo 
despite serious threats to our current capability. Thus, this 
QDR provides a force structure that is built for the wars we 
are in today, when the purpose of review is exactly the 
opposite--to prepare for the likely conflicts of tomorrow. One 
must ask: what is new here?''
    Well, I understand that the committee will receive the 
final Space Posture Review later this summer and after a few 
national space policy and strategy issues have been reviewed 
and developed. I encourage the Administration to provide a 
forward-looking posture that will guide near-term and future 
investments in space.
    With respect to the budget requests, a major space 
acquisition program such as advanced extremely high frequency 
(AEHF), Wideband Global Positioning (WGS), Mobile User 
Objective System, Global Positioning System (GPS), and Space-
Based Infrared System (SBIRS) appear funded consistent with the 
previous plans despite a 7 percent topline reduction. Finishing 
these acquisition programs and giving them on-orbit is 
important. Equally important are the investments in next-
generation science and technology and innovation and ingenuity 
that can lead to new--and sometimes revolutionary--
capabilities, yet these investments appear to be on the 
decline. How can our Nation retain its leadership in space if 
our science and technology investments are on the decline? Our 
committee required a Space Science and Technology Strategy in 
last year's defense bill and I look forward to receiving that 
in the future.
    I would like to highlight a few other concerns that I hope 
our witnesses can address. First, I am deeply concerned about 
the industrial base for solid- and liquid-fueled rockets. Some 
defense officials have suggested that Air Force space launch 
costs could double in the out-years due to the termination of 
the National Aeronautics and Space Administration's (NASA) 
Constellation program because all infrastructure costs 
currently shared by the Department of Defense (DOD) and NASA 
may be passed on to DOD. Exacerbating this issue is the 
apparent lack of any real new development effort to sustain the 
engineering and design talent, and a lack of funding to sustain 
unique production and manufacturing capabilities, particularly 
for ICBM solid rocket motors. So what is the magnitude of this 
issue and how is the department--and the interagency--
approaching it?
    Second, the Defense Intelligence Agency recently issued 
guidance that restricts the National Air and Space Intelligence 
Center, NASIC, from doing `original analysis' in certain 
counterspace areas. I understand that many of your 
organizations have a long history of reliance upon NASIC's 
technological expertise and analysis. Limiting their ability to 
continue to provide such support cannot be in our best 
interest, especially with the Department's increased emphasis 
on space situational awareness and space protection.
    Third, we saw a major change in the joint National Polar-
orbiting Operational Environmental Satellite System (NPOESS) 
weather satellite program. The committee was told that 
differences between DOD and the National Oceanic and 
Atmospheric Administration (NOAA)/NASA could not be resolved. 
The White House decided in February to restructure the program 
and allow each party to go its own way. However, neither DOD 
nor NOAA and NASA appeared to have a clear way forward.
    It has been over a year since the Transformational 
Satellite Communications Program was terminated, yet we still 
don't have a plan for the way ahead in military satellite 
communications. I am concerned that we see the pattern repeat 
itself with the way ahead after NPOESS. Any insight our 
witnesses can share on these activities is appreciated.
    Fourth, I hope our witnesses will discuss their views on 
Operationally Responsive Space, ORS. Later this year, an ORS 
satellite developed in response to a United States Central 
Command urgent need is planned for launch. Last December, 
General Chilton issued an urgent need request for options to 
augment the missile warning constellation. Is this the right 
role and focus for ORS?
    Lastly, we are fortunate to have witnesses that are also 
experts in the cyber domain. General Kehler and Mr. Butler, I 
am interested in your assessments of the Department's 
cyberspace capabilities and challenges. What are the 
Department's goals, and does it have the policies, tools, 
people, and resources to achieve them?
    I want to thank you all again for being with us here today. 
You each possess a tremendous amount of expertise and insight 
into our Nation's space policy and capabilities. Our Nation is 
better off as a result of your service, and I look forward to 
your testimony today. Thank you.
    Mr. Langevin. I thank the ranking member. We received a 
prepared statement from each our witnesses and these statements 
will be entered into the record without objection. So if you 
could, please summarize the key points so that we have 
sufficient time for questions and answers. And we will begin 
with General Kehler.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
                 SPACE COMMAND, U.S. AIR FORCE

    General Kehler. Thank you, Mr. Chairman. Mr. Chairman, 
Representative Turner, distinguished members of the 
subcommittee, it is an honor to appear before you today, both 
as an airman and as the Commander of Air Force Space Command. 
And on behalf of the 46,000 men and women of Air Force Space 
Command, thanks for your continued support, both of the United 
States Air Force and of the capabilities we provide to the 
Joint Force Commanders.
    I am very proud to lead a team of active duty airmen, Air 
National Guardsmen, Air Reserve Command personnel, government 
civilians, and contractors who deliver space and cyberspace 
capabilities to America and its warfighting commands around the 
globe. Everything we do begins and ends with the needs of the 
Joint Force Commanders, and our measure of merit is how well we 
contribute to the joint team, to civil needs and, in the case 
of GPS, a global user base that expands every day.
    Space and cyberspace capabilities provide our forces with 
the ability to navigate with accuracy, see with clarity, 
communicate with certainty, strike with precision, and operate 
with assurance. These capabilities are woven throughout the 
fabric of our joint warfighting activities and our everyday 
lives. No question we have tough challenges ahead. Space is 
becoming more contested and congested, but we have rounded a 
few corners and are proud of the progress we have made since we 
appeared before you last year.
    Special thanks again to this committee, its leaders and its 
members for taking the time to understand these important 
issues and for providing the support we need to remain a 
critical part of the joint team. And with that, sir, I look 
forward to your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 25.]
    Mr. Langevin. Thank you, General Kehler. Mr. Butler, the 
floor is yours.

 STATEMENT OF ROBERT J. BUTLER, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR CYBER AND SPACE POLICY, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Mr. Butler. Thank you, Mr. Chairman, Representative Turner, 
and distinguished members of the subcommittee. I am pleased and 
honored to testify today on behalf of the Department of Defense 
and Space Policy. As you mentioned in your opening statement, 
we have delivered an interim Space Posture Review which 
characterized the space environment in the terms of three Cs: 
congested, competitive, and contested.
    From the standpoint of congestion, we have talked about a 
couple of examples already. It is a key element of what drives 
and what will drive our response in terms of the future of our 
space strategy. It is not only about debris management, but it 
is also about spectrum and how we deal with that as well.
    In terms of the competitive environment, we are in an 
international space business of $250 billion, with 60 nations 
or commercial entities involved. We are working through, now, 
an environment where we are not at it alone, and that presents 
its challenges and we are working through responses with 
regards to the competitive nature.
    And then with regards to the last C, dealing with the idea 
of contested, we mentioned some examples about the Chinese 
ASAT, but we also have nations trying to jam our commercial 
signals and we are, again, engaged in developing responses to 
deal with that. That environment then causes us to think 
through the kinds of things that we will be focused on as we 
move forward with a national space policy, the national 
security space strategy, and where we are going in the future.
    Some of the areas that we are exploring extensively is 
space situational awareness. As you mentioned, the Department 
of Defense was given the responsibility for providing space 
situational awareness. We have, over the last year, taken on 
that responsibility, and Strategic Command in particular is now 
working to implement a concept of operations to help us with 
that as we move forward.
    In addition to dealing with space situational awareness and 
the sharing of that information, we are also working 
extensively within the Department to look at operations without 
space in a degraded environment, based on the fact that space 
is contested.
    A series of tabletops and war games, the Schriever 10, 
sponsored by General Kehler and Air Force Space Command coming 
up next month provides an opportunity for us to continue to 
walk down that path and look at issues regarding replacement, 
augmentation and redundancy, a well as resiliency.
    Beyond that, we are also focused on looking at different 
ways of sharing and engaging, both on the international side 
and commercial side. So in response to your questions about the 
differences with regard to where we are headed, it is no longer 
a kind of `go it alone' strategy. It is a foreshadowing of 
where we were going to go in terms of partnerships.
    On the international side, we have currently military-to-
military relationships, as well as intelligence relationships. 
Those relationships give us the opportunity to grow in the 
future with helping each other in an interconnected world.
    Beyond that, on the commercial side, we have been involved 
with looking at commercial capabilities to help us with 
communications, as well as remote sensing augmentation to 
national systems, as well as what we are doing with expansion 
of wide-band communications to help us on the commercial 
augmentation side.
    These are just some of the themes that we are looking at as 
we move forward beyond the characterization of that environment 
to begin to address the challenges of a congested, competitive, 
and contested space.
    I look forward to your questions.
    [The prepared statement of Mr. Butler can be found in the 
Appendix on page 43.]
    Mr. Langevin. Thank you very much, Mr. Butler.
    Ms. Sapp, the floor is yours.

 STATEMENT OF BETTY SAPP, PRINCIPAL DEPUTY DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Ms. Sapp. Chairman Langevin, Ranking Member Turner, and 
distinguished members of the committee, thank you for the 
opportunity to be here today. On behalf of General Carlson, I 
would like to just start with a little bit on where the NRO is 
today.
    You know, from launching the most technically-capable 
systems, to keeping legacy satellites flying, to developing the 
business practices that secured a clean financial audit for the 
NRO, we believe the NRO remains the premier space 
reconnaissance organization in the world.
    We have had significant successes in the last year, and the 
NRO is wholly focused on continuing that record of success by 
delivering the space reconnaissance capabilities the Nation 
requires, on time and on budget.
    I would like to end my opening remarks today by 
highlighting a critical mission for the NRO, which is 
supporting the warfighter, with a specific story. Last month, a 
helicopter went down in a remote location in Afghanistan. With 
no organic intelligence, surveillance, and reconnaissance 
assets available to the Army brigade involved, the brigade's 
intel staff requested immediate imagery assistance from a 
combined NRO-National Geospatial-Intelligence Agency cell. We 
were able to rapidly provide multiple images of the area on the 
very low bandwidth connection that they had available to them. 
It allowed key imagery intelligence to be provided to the 
operations and rescue teams within minutes. The craft site was 
quickly secured and protected, and 14 wounded soldiers were 
safely rescued.
    One of the intelligence officers involved relayed the 
following to us: ``I wanted to pass on my sincere thanks for 
your support that night. An aircraft down is one of the worst 
things we can experience as a unit and your timely imagery 
support was pivotal to the rescue teams.''
    This is just one example of the NRO's living its vision of 
vigilance from above.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear before you today, and I thank you for 
your continued support to the NRO and look forward to answering 
your questions.
    Thank you.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 51.]
    Mr. Langevin. Thank you very much.
    Mr. Payton, the floor is yours.

STATEMENT OF GARY E. PAYTON, DEPUTY UNDER SECRETARY OF THE AIR 
            FORCE FOR SPACE PROGRAMS, U.S. AIR FORCE

    Mr. Payton. Mr. Chairman, again, thank you for the 
invitation to appear before the committee and the opportunity 
to discuss the Air Force space program.
    2010 is an important year for us. Within a few weeks, we 
will be launching the first of the next generation of GPS 
spacecraft, 2F-1, that will provide a new civil signal for the 
world, a signal designed specifically for safety of life 
applications in a part of the radio frequency spectrum that is 
better protected from interference. That will launch, currently 
scheduled on the 20th of May.
    Later, in July, we will be launching the Space Based 
Surveillance System. This will provide 24-7 observations of 
space objects unhindered by atmospheric effects. Later in July, 
we will be launching the first of the Advanced Extremely High 
Frequency (AEHF) spacecraft. This is a large step in the 
protected communications constellation, offering 10 times the 
aggregate through-put of each spacecraft and five times the 
data rate of the legacy systems.
    Also, this is the communications system that provides the 
President nuclear command and control for our deterrent forces. 
So this is a critical mission and a large increase in 
capability.
    Finally, later in 2010, we will launch the first of the ORS 
spacecraft, specifically designed to satisfy an urgent need of 
a theater commander. This will satisfy a capacity shortfall in 
surveillance and reconnaissance for Central Command.
    Again, from the start of the program to the launch will 
consume only two years. And so again, as a measure of 
responsiveness, this is a huge step forward.
    Thus, in 2010, we will see Air Force expanding our capacity 
on communications constellations, improving our accuracy of the 
GPS constellation, responding to urgent warfighter needs, and 
large strides in our space situational awareness, all delivered 
in 2010. And none of that would have been possible without the 
help from this committee and Congress.
    And so the Air Force thanks you and, more importantly, the 
joint warfighter thanks you.
    I eagerly await your questions.
    [The prepared statement of Mr. Payton can be found in the 
Appendix on page 60.]
    Mr. Langevin. To the panel, thank you very much for your 
opening statements.
    Let me begin with General Kehler. As I talked about in my 
opening comments, as you contemplate your responsibilities for 
organizing, training, and equipping our space forces, we 
obviously are interested right now, General, in what keeps you 
up at night. What are the most important challenges that you 
face? And what should we be doing to ensure that we can 
continue to deliver space capabilities to all of our 
warfighters?
    General Kehler. Thanks, Mr. Chairman.
    Well, first of all, I would tell you what doesn't keep me 
awake at night. What doesn't keep me awake at night are our day 
in and day out space operations. Once we put the platforms in 
the hands of our young men and women, they produce remarkable 
results. And I think Ms. Sapp's vignette was very appropriate. 
We hear those kinds of results from the forward forces all the 
time.
    In addition to that, I think we let our performance in 
launch, where we have had now almost 10 years worth of launch 
successes, and we allow our performance in GPS, which has now 
become the gold standard for the world, to speak for 
themselves. And so what does not keep me awake at night are the 
operational activities that we conduct with those space 
capabilities that you all have supported and put in our hands.
    What does keep me awake at night, though, are a couple of 
things. One is, if we want to continue to have a world-class 
Air Force and a world-class space and cyberspace capability, we 
have to have world-class people. And this is an all-volunteer 
force and we are in competition for people. That is 
particularly true, and we have seen that over the years in the 
space professional ranks where we compete with civilian 
industry for our space professionals. But in particular as 
cyberspace is emerging, that is going to be an acute issue for 
us as we go forward, is how do we recruit and retain those 
people with the appropriate expertise in cyberspace?
    So people and recruiting and retaining--around our command, 
we call this, we want to build a world-class team of battle-
ready professionals. And that keeps me awake at night, is are 
we doing the right things to do that? Are we stimulating the 
right educational incentives, et cetera, et cetera.
    The second thing that keeps me awake is the industrial 
base. We have concerns about the long-term viability of our 
industrial base. It is a far different industrial base than it 
has been in the past. There are many reports, and many folks 
have studied the industrial base and they all report that there 
is more fragility, if you will, in the industrial base than 
there has been in the past, which makes the industrial base 
more sensitive to changes than they have been in the past.
    And so that also concerns me, that I ask myself all the 
time: Are we positioning ourselves correctly to make sure that 
our successors will be able to look back and say they have 
given us the right people to do the jobs that we need and they 
have left us the appropriate industrial base to do the job that 
we need to get done? And so those two things keep me awake at 
night.
    The final thing that is on my mind quite a bit, of course, 
is making sure that we are adjusting, and this gets to 
Representative Turner's question about the future. No question 
about it: we have focused on deploying those things that have 
given us such acquisition difficulties. And we have committed 
ourselves to that. We have turned important corners. And 
already, as Mr. Payton just very, very adequately talked about, 
the number of things that will happen in 2010, we are there 
because of the dedication and hard work of a lot of people in 
the government and in the industrial base that supports us.
    And so we have a way forward here for the near future that 
is, essentially, the platforms that Mr. Payton just mentioned--
GPS-2F, Advanced EHF, Space-Based Infrared System as it comes 
off the factory floor later this year, and I have got 
confidence that it will come out of the factory floor, et 
cetera.
    The question is: What comes next? And it is time for us now 
to start thinking about what comes next. We have block 
improvements planned for many of these capabilities, but I am 
concerned that we pay attention to innovation as we look to the 
future and make sure that we are in a position to innovate, as 
we have done in the past, at the appropriate times in the 
appropriate ways, so that we can continue to provide the 
leading edge capabilities that we need.
    Those three things, sir, are the things that are keeping me 
awake at night.
    Mr. Langevin. Thank you, General.
    And on the--let me go back to the cyber component of your 
answer since that is something that I pay a lot attention to as 
well.
    Does the Cyber Command that the Pentagon is standing up, 
will that answer the concerns that you have in those areas? 
Will that provide both enhanced capabilities, but also a career 
path for those individuals that we hope to attract and retain 
in the cyber workforce in our Nation's military?
    General Kehler. Sir, I think that is a big step in that 
direction. And I believe, you know, the Secretary of Defense 
has looked at the services and has said, ``I need you to be 
prepared to contribute capabilities and forces to the new U.S. 
Cyber Command.'' And so the activities that we have taken to 
stand up a new numbered Air Force, the 24th Air Force in our 
case, and to begin new training efforts to set up a new cyber 
career field to look at how we will acquire capabilities for 
cyberspace faster because, you know, the shelf-life on 
information technology-related things is pretty short.
    All of those steps, Mr. Chairman, are under way in major 
part because the Secretary elected to stand up U.S. Cyber 
Command and has told the services to be ready to contribute 
forces to that command. So I think that is a big step in the 
right direction, recognizing that, you know, we are still only 
a small piece of the bigger government effort, but it is 
certainly a stimulus for us, and that positive direction, I 
think, will make a big difference.
    Mr. Langevin. Thank you. On another topic, in 2007 the 
Commander of the Army Space Missile Defense Command said that 
within three years, China may be able to challenge the U.S. at 
a near-peer level in space.
    With the Chinese test of an anti-satellite interceptor in 
January 2007 and the test of an anti-ballistic missile 
interceptor in this past January, there is a real risk, 
obviously, to our satellites, that the satellites might not be 
able to--might not be available in a future contingency.
    And I was kind of surprised that, of the things that might 
keep you awake at night, that redundancy and contingencies were 
not on the list. But, General, do we have the military 
operational plans or contingency plans that reflect the 
possibility that certain satellites may be unavailable during 
times of crisis and war? And how quickly could we reconstitute?
    General Kehler. Mr. Chairman, the message that we have 
taken away from the recent activities that we have seen is that 
space is not a sanctuary. Not only is it a naturally hostile 
environment, but we have seen through the demonstration of the 
anti-satellite test and ground-based jammers that are 
proliferating around the world. You know, I tell people 
sometimes if you are interested, go to your home computer and 
go to a search engine on there and type in `GPS jammers,' and 
see what you get. You will be surprised, I think. Maybe you 
won't probably be surprised, but some would be surprised at 
what you find there.
    And so we know that space and the capabilities that are in 
space are not a sanctuary. The question is, what do we do about 
that? And in response to our concerns here, a little over two 
years ago, the Director of the NRO and I decided to put 
together a joint effort called the Space Protection Program. 
And that is bearing fruit for us.
    We understand that this is about layering protection 
activities. In some cases and, in fact, in a couple of 
important cases, I think, we find that the most important thing 
we can do to protect ourselves is to be able to figure out with 
high confidence what happened. And that is space situational 
awareness, and we have to get better at space situational 
awareness. In fact, the budget request contains some 
enhancements for space situational awareness.
    The second thing we have to do is we have to go back to 
design and engineering. In some cases we are going to have to 
build some protection in. Some of our assets today are very 
well protected. We have mentioned Advanced EHF a couple of 
times. Advanced EHF is designed to survive in a hostile 
environment against certain kinds of threats--not all threats, 
but certain kinds of threats.
    Those were design considerations that were taken into 
account when we were building AEHF. We are going to have to do 
that in a bigger way. GPS is another example with some design 
considerations.
    The third thing we have to do, and what we are doing is we 
are adjusting our tactics, our techniques, and our procedures. 
This gets to the planning question that you asked. Do we have 
contingency plans in place? And the answer is, we are in the 
process of addressing all of those.
    Much of this stems from a clear understanding of where our 
vulnerabilities are and what our interdependencies are with all 
of the things we use from space for national security purposes. 
And we have a much better view of all of that today than we 
have ever had before.
    And then finally, contingency planning really gets down to 
mission assurance. In some cases, we may not want to protect a 
certain space asset at all. It may be best to back up that 
capability with something else--an air asset, for example. And 
so we are looking very carefully at those places where we must 
protect something in space and then looking at what is the best 
way to go about that.
    So I think we have responded to this concern about space 
not being a sanctuary--and by the way, that is not new. We can 
go back to the Cold War. We watched the Soviet Union in those 
days test anti-satellite weapons, et cetera. What is different 
today is the consequences of loss. I would argue that today the 
consequences are far greater than they probably would have 
been, had the Cold War turned into a hot war.
    So we are much more mindful of this issue today. It doesn't 
keep me awake at night, because I think we have got a good 
handle on it. We don't have all the fixes in place, but I think 
we have a long way in the last two to three years in 
understanding where the problems are and coming up with the 
ways to deal with them.
    Mr. Langevin. Very good. Well, on that point there is 
nothing better to undermine an aggressor's confidence that they 
can disrupt those capabilities than to have multiple layers of 
redundancy. And so the more we can do in that area, the better.
    Thank you, General, for the work you are doing and for your 
answers.
    Mr. Butler, I wanted to address, if I could, your insights 
into the progress that is being made to establish an overall 
national space policy and the work remaining to complete the 
national security space posture. And we hope that you could 
share with us any additional findings from these ongoing 
efforts at this point.
    Mr. Butler. Thank you for the question, Mr. Chairman.
    We have been meeting within the interagency here for the 
last couple of months now on building up the national space 
policy. We have a robust process in place that is moving us 
through a sharing of ideas and common themes that move us 
beyond guiding principles to a product which we believe will be 
ready sometime late spring.
    We have also gone ahead and, based on what we have been 
asked to do from the congressional side as well as within the 
executive branch, begun to sequence these activities in a much 
more logical way. So the rationale for waiting on the final 
Space Posture Review was to benefit from the insights of the 
development of the national space policy and the national 
security space strategy, which we will be working on as we 
complete the national space policy.
    We are also dovetailing into that in congressionally-
directed activity with regard to the space investment strategy 
and looking at export control reform and the like.
    As we move forward in time, the themes that I talked about 
within the interim Space Posture Review have come up and have 
been corroborated, for the most part, as part of the 
overarching characterization of the environment that we will be 
working in. And as we do that, there is a bridge that we are 
working across the national security community, the science 
community and the commerce community as we build the national 
space policy.
    So my sense right now is we have a good, coherent, and 
integrated plan for moving forward from policy and guiding 
principles to the ideas for response, and then moving toward an 
investment strategy that will help us implement those 
particular principles.
    As we move forward, our intent, of course, is to share with 
you these ideas as we work with the White House and get them 
agreed upon, and then continue to look at ways that we can 
build on the principles that I talked about in the latter part 
of my opening remarks--namely, the ideas of international 
cooperation, looking at ways that we can build upon, I know, 
themes that you are concerned about with the industrial base as 
part of the strategy principles that we would like to 
implement.
    If there is no other follow-up questions on that, I would 
like to build on the cyber discussion for just a moment.
    Mr. Langevin. Well, if--I would like to hear your thoughts 
on that, but since we are on space policy and Space Posture 
Review, we haven't completed it. Could you talk about how we 
might apply deterrence in space, the threats that we face in 
the 21st century? Can we deter others from holding our space 
systems at risk?
    What are the merits of a declaratory policy that signals 
our intent and lays out consequences very clearly? And do you 
see merit in establishing international rules of the road and/
or codes of conduct in space?
    Mr. Butler. Thank you, Mr. Chairman. All great questions, 
and all questions that we are in the process of considering. 
When we think about deterrence, our major focus is on 
dissuading belligerent actions in space. And it begins with 
what General Kehler was describing as space situational 
awareness, having an understanding of what the environment is 
like in space, and being able to be more predictive about how 
that environment is changing.
    Behind that idea of space situational awareness, then, is 
the idea of improving the way that we protect our own space 
capabilities. I mean, it goes back to the space protection 
strategy that General Kehler outlined.
    A key aspect of the thinking more broadly as we build out 
in this process of deterrence is the idea of working with like-
minded nations in different ways. One way in which we look to 
do that is through space situational awareness and data 
sharing.
    Another way is what you suggested in terms of looking at 
rules of the road. We have done some of that already as we have 
worked in our existing cooperation agreements. We have done 
that with the United Nations over the last couple of years in 
looking at debris mitigation rules of the road.
    In terms of aspects of declaratory policy and red lines and 
thresholds, we are working through that with the national space 
policy. And as we work through that discussion and come to some 
conclusions, I will be happy to come back and discuss, you 
know, the specifics with regards to those particular areas.
    Mr. Langevin. Good. Well, we would certainly welcome that. 
Before I turn to the ranking member, you said you wanted to 
comment on cyber.
    Mr. Butler. Sure. I would just like to build a little bit 
on General Kehler's thoughts. We are working within OSD (the 
Office of the Secretary of Defense) on not only the standup of 
Cyber Command, but an emphasis area for the Secretary is cyber 
cadre development. Within that, we are looking at best pre-
models that are coming from the different services and looking 
across generational issues as well as private-public sector 
cross-flow.
    I had the privilege this past weekend to be in San Antonio, 
where I looked at one of those models, the National Collegiate 
Cyber Defense competition, where colleges are getting together 
now and competing in new and different ways on teams to promote 
and create a dream about being involved with cyber defense.
    My sense is, as we move forward with the development of the 
defense cyber strategy, which is in progress right now, we will 
have that as a major focus area, which will be a critical 
element of organizing and resourcing Cyber Command for success.
    Mr. Langevin. Very good. Thank you for that additional 
comment. I have other questions for Ms. Sapp and Mr. Payton. I 
hope we can do that in a second round when it is my turn, but 
for now we are going to turn to the ranking member for his 
questions.
    Mr. Turner. Thank you, Mr. Chairman. We have quite a few 
members that are interested in asking questions. I am eager to 
get to their thoughts also.
    As I had said in my opening statement, we have concerns 
about the NPOESS program restructure. The National Polar-
orbiting Operational Environmental Satellite System was a joint 
50-50 cost share program between DOD, Air Force and NOAA and 
NASA. It experienced significant technical costs and schedule 
problems, including a Nunn-McCurdy breach in 2006, but was put 
back on track.
    However, differences among the defense and civilian users 
could not be resolved, and in February 2010 the White House 
decided to restructure the program, allowing each party to go 
their own way. Neither DOD nor NOAA and NASA have made 
decisions on whether to continue with the current contract with 
Northrop Grumman or to acquire NPOESS satellite to terminate 
that contract and pursue an alternative approach.
    Without a clear plan, the FY 2011 budget request of $351 
million to continue NPOESS system program design may be 
unjustified.
    General Kehler and Mr. Payton, what are your thoughts on 
the next steps for NPOESS program? And should it be continued 
by DOD or replaced by an alternative new approach? And are 
there risks of a gap in capacity and capability?
    General Kehler. Sir, I will start and then defer to Mr. 
Payton. A couple of things that we know--one is that the 
decision that was made was to separate the responsibility for 
providing the satellites in the particular times of the day 
that those capabilities are needed. We will retain a common 
ground system and common command and control, recognizing that 
all the data has to come and be fused together to be useful for 
us. And so that is one feature of this.
    Second, we have two Defense Meteorological Satellite 
Program satellites left that are sitting here waiting to be 
launched. And so we are looking very carefully at when we will 
have to launch those, given this decision to make sure that we 
have phased those satellites correctly so that we do not have a 
gap in the time of the day that is going to be the 
responsibility for DOD, in particular.
    And then the third piece is, we are looking very hard at 
the requirements so that we make sure that we have now 
apportioned, if I can use that word, the requirements to the 
various responsible parties across those orbits to make sure 
that we have got that lined up right, and we are taking enough 
time to go back and look at the requirements, because what we 
know about acquisition programs that have gotten in trouble is 
that they started off without a clear understanding of 
requirements. So we are back looking at the requirements there.
    And then finally, we are also looking with a mind toward 
harvesting as much as we can possibly harvest out of the 
program that has already gone on for NPOESS that has taken us 
this far. The answers aren't in yet, but we are working very 
carefully with our colleagues in the Department of Defense and 
the air staff to make sure that we get the answers right and 
that we are prepared to go forward smartly when the decisions 
are made.
    And with that, Mr. Payton, I will defer to you.
    Mr. Payton. I would offer that the Air Force is not going 
to get out of the business of Lower Earth Orbit weather 
observation spacecraft. Truthfully, we view Strategic Command 
as the first among equals for representing the warfighter for 
global weather forecasting.
    And Strategic Command has been very adamant that they 
cannot tolerate a gap in that early-morning orbit. And so that 
is the premier objective that we will maintain for future Air 
Force acquisitions in the Lower Earth Orbit weather mission.
    Mr. Turner. Mr. Chairman, we have votes coming up. To 
ensure that everybody else gets an opportunity to ask 
questions, I will defer to the other members.
    Mr. Langevin. Fair enough. Thank you. I thank the ranking 
member. Mr. Lamborn is now recognized.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you all for being here. And like I told you each 
personally, thank you for your service in protecting our 
country.
    The first question is for General Kehler and Secretary 
Butler, multipart: How will the Air Force Cyber Command work 
with the new U.S. Cyber Command?
    Secondly, will the U.S. Cyber Command have the resources it 
needs?
    And what do you see as key issues in the cyber arena?
    General Kehler. Well, sir, let me start. Again, the first 
part of the answer is how will 24th Air Force work with U.S. 
Cyber Command?
    We have stood up a numbered Air Force, a new numbered Air 
Force, that is identical in construction to every other 
numbered Air Force that is attached to either the regional 
combatant commanders or the global combatant commanders.
    So, for example, in space, we have 14th Air Force, and that 
is assigned to U.S. Strategic Command, and that is how we 
package all of our space capabilities and hand them over to 
U.S. Strategic Command.
    We will do the same thing with our cyber capabilities. We 
will put them inside 24th Air Force, a step we have already 
taken. And 24th Air Force will become the Air Force component 
to U.S. Cyber Command when it is stood up.
    In the meantime, it is the U.S. component to Strategic 
Command where the cyber responsibilities still reside.
    So we have constructed our method of presenting operational 
forces to a combatant commander for cyberspace the same way we 
do that if it was fighters or bombers or spacecraft or any 
other part of the family of Air Force capabilities that we 
bring to the fight.
    And I will defer the other parts of the question.
    Mr. Lamborn. Thank you.
    Mr. Butler. Sir, in terms of the relationship that General 
Kehler just described for the Air Force, that is exactly what 
the Army and Navy are doing, in terms of presentation of forces 
into U.S. Cyber Command.
    With regard to the resourcing issue, I think we--one of the 
key tenets of setting up Cyber Command was to leverage the 
existing capabilities that we have in place within the 
Department of Defense.
    So as you heard last week in General Alexander's testimony, 
we are working to ensure that we leverage the technical back 
plane of the National Security Agency as we build capabilities 
around that.
    In terms of the future resourcing for the command, we have 
efforts under way to look at what will be required above and 
beyond.
    In terms of the specific issues that we are dealing with 
U.S. Cyber Command, again, I go back to General Alexander's 
testimony from last Thursday to the Senate Armed Services 
Committee. Authorities and policies need to be put in place for 
greater protection of the networks.
    We are working through that. That extends out to the 
privacy and civil liberties groups, all the way out to doing 
full-spectrum operations.
    Certainly from the standpoint of capabilities, the ability 
to do rapid technology insertion with continuous risk 
mitigation is an important element that we need to continue to 
work on and grow.
    And then capacity--and inside of capacity is bridging with 
not only within our own Department of Defense and with other 
partners within the interagency, but building capacity with the 
private sector and building capacity with international 
partners.
    Mr. Lamborn. Okay, thank you.
    And my next question is for Director Sapp and Secretary 
Payton. And it has to do with budget and resources. I am 
concerned that this Administration is not prioritizing like it 
should be with a number of defense priorities to protect our 
country, as opposed to other budget initiatives that it is 
taking.
    So, specifically, do you think the national security space 
programs have adequate funding to make sure they can be 
executed in a timely manner, in support of the various 
missions?
    And what do you see as possible problems, or is everything 
okay in the near future?
    Thank you.
    Mr. Payton. I will try that first. Our top priority is--and 
I use the term ``constellation health.'' Other people use the 
term ``continuity of service.''
    But we have got--the Air Force has several missions in 
space. And the warfighter needs those services more and more 
every single day. And so as we lay out the projected lifetime 
of the spacecraft that are currently on-orbit, and as we 
project the acquisition time for new spacecraft, that 
continuity of service is foremost in our minds.
    And so that is what underpins our budget request. That is 
what underpins our acquisition plans. And that is adequate to 
satisfy that top priority need.
    Mr. Langevin. I thank the gentleman. Mr. Franks is now 
recognized.
    Mr. Lamborn. Well, is it possible that we could hear from 
Secretary Sapp?
    Mr. Langevin. Certainly.
    Mr. Lamborn. Because I think we will still have time for--
--
    Mr. Langevin. That is fine.
    Ms. Sapp. I would agree with what Mr. Payton said. We want 
to make sure that we have continuous service to the warfighter. 
We are budgeted to support that.
    I think where we struggle is to make sure we have 
continuity for our factories to support the industrial base. 
And I think we struggle to put new engineering, new capability 
insertion in those systems.
    The research and development investment has suffered over 
the past several years. So that is where we need to try and 
recover a bit.
    Mr. Lamborn. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Langevin. Thank you. Mr. Franks is now recognized.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I guess I might just take just a quick step from the 
previous questions. I know that when it comes down to 
ascertaining our budgets and the things that you need, I 
understand that probably one of the biggest challenges for 
space is just the growing hunger for bandwidth.
    And I know that, you know, our Global Hawk and the Predator 
and a lot of these things are demanding more and more 
bandwidth. And there is a review, a joint review that was due 
to Congress at some point.
    And I guess, General Kehler, I will put the first question 
to you--not so much--this is not a punitive question. I just 
appreciate all of you being here and appreciate your service. 
But, probably, there will be nothing--be a greater leverage, 
though, and I just want to make sure your budgets are 
sufficient, knowing what the bandwidth is going to be, so that 
we can make sure that we are dealing with the need first.
    What are your concerns--I mean, when you look back at some 
of the history, here, there have been cancellations in the last 
couple years, you know, specifically the Transformational 
Satellite (TSAT) system, which was set to be, really, a follow-
on program for the Advanced Extremely High Frequency satellite, 
which itself was also a follow-on to Milstar. And that is not 
scheduled to launch its first satellite until later this year.
    So I guess--how can the DOD know, and how can they help us 
know what those bandwidth requirements are, and where are we in 
terms of what we need?
    And I will start with General Kehler, and then, Mr. Butler, 
if you would speak to it?
    General Kehler. Well, sir, there are others at the table 
who can talk about the status of the studies. There is a 
bandwidth study under way. There is also a study under way 
looking at the requirements for what we are calling the Joint 
Space Communications Layer, the JSCL.
    There are a number of other studies under way that are 
coming to grips with this question about, what do we do after 
Advanced EHF and as we have canceled TSAT?
    What I would say is there is an insatiable appetite here. 
And this appetite--we don't see it actually leveling off. There 
is always a demand for more and more and more bandwidth.
    And the way we have been managing that, to date, of course, 
is with those things that the government is out buying, now 
about to deploy the first of the Advanced EHF satellites, 
already having deployed the third of the Wideband Global 
satellites, all of which are performing very, very well.
    And so we are at the beginning of a huge enhancement to 
what the government is doing for itself.
    And then, secondly, we have been taking up the difference, 
if you will, with commercial.
    We also have allied participation in the satellite 
communications business. The Australians participate in WGS. 
Other countries participate in Advanced EHF.
    Those three elements, in my personal opinion, form the 
basis of how we are going to deal with this as we go to the 
future. There will be a government piece, and that is the piece 
that we are trying to decide, is how much does the government 
need to do for itself?
    There will be, we think, continuation. There is certainly 
goodness in continuing allied and friendly participation in 
some of these programs. And then the third piece is commercial.
    The question for us, I think, is what is that mixture as we 
go to the future? And I think we have some opportunity, here, 
to look at a way to do this with, maybe, a little bit more 
flexibility and foresight as we go to the future, and not be 
working to try to catch up as demand increases.
    But, sir, I will defer to those who are a little closer to 
this.
    Mr. Butler. Let me pick up on the bandwidth requirement 
study. We have completed the work within OSD on the National 
Information Infrastructure side, with our CIO, our chief 
information officer, and with the National Geospatial Agency.
    And that is in coordination. That should be completed--it 
should be finished, produced and over soon. I know it is late.
    We have looked across, you know, a temporal period that 
takes us from 2008 out to 2023. And it substantiates what 
General Kehler was talking about, in terms of the expanded 
communications requirements in narrow-band, wide-band, and 
protected communications. It is also a kind of a pathfinder for 
us as we think about how we would implement the types of things 
that I described in the SPR in international engagement.
    It is one of those areas that, you know, we talked about. 
General Kehler mentioned Australia. It is not just unique to 
the United States and to the Department of Defense, this 
communications requirement need. There is opportunity to find 
ways to share with others and engage with others in this arena.
    But the bandwidth study has been completed, and you should 
be seeing that soon.
    I think Gary could take--Mr. Payton could take the TSAT 
question and provide some thoughts with regard to that----
    Mr. Payton. TSAT was one of the programs that benefited 
from a conscious decision to prove the component technologies 
before we settled on a design for the spacecraft itself.
    What we are doing now, over these--current year and the 
next year is working with the warfighter to find out which one 
of those technologies should be fielded with the highest 
priority.
    And again, we want to take--we want to be responsive to the 
warfighter and deploy those technologies on whatever platform 
is best, but in the order and with the priority that the 
warfighter drives us to.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, gentlemen. Thank you to the lady.
    Mr. Langevin. I thank the gentleman. We have votes on--at 
this point, there are just under 8 minutes left on the clock. I 
have additional questions that I am going to submit for the 
record, since I took more time than I planned in my opening 
questions, and I will forego those right now, and I will turn 
to the ranking member for five minutes or so, the time he needs 
to ask some additional questions.
    Mr. Turner. Thanks. Looking at the clock, here on the--just 
on the House floor, with 7 minutes and 26 seconds to go before 
you all have to finish votes, the interim Space Posture Review: 
there was--you know, a number of members have made comments of 
the concern that it was a status quo posture review and that 
there is more that needs to be eliminated in it.
    We heard from Mr. Butler. I guess it would be nice if we 
took just our last moments to hear from General Kehler, Ms. 
Sapp and Mr. Payton on--just a few minutes, obviously, for each 
of you--what are some of the things that are missing that was 
not in it, in the interim, that you believe need to be 
addressed?
    Mr. Turner. General Kehler.
    General Kehler. Well, sir, I have--maybe I have a little 
bit different perspective on this since I know it is an interim 
report, and I know that there are other pieces that are being 
worked.
    What I think is positive about the interim report is it 
begins to look at this question of opportunity for the future.
    And although we find ourselves in a difficult position here 
in terms of an environment, a domain that is congested and 
contested, and complex--and I think those are the three words 
that are actually used in the interim report, congested, 
contested, and complex--it also lays out a way for us to begin 
to look at the future here that leverages partnership 
opportunities. And I think that is a positive.
    I think that the final report will treat some of the issues 
a little bit more fully, and I will look forward to that.
    Mr. Turner. Ms. Sapp? Obviously, there are a number of 
people who have concerns that there are things in it that are 
missing. What do you see that is missing?
    Ms. Sapp. I do not see anything that is missing. I think we 
have some choices we will have to sort out as we go final with 
the report. And some of those were brought up, in terms of how 
declaratory are we, do we really lay out lanes in the road?
    I think there are some choices there in what we show and 
what we don't that we will have to make before we go final with 
that report, and I think that is some of the things that are in 
discussion right now.
    Mr. Turner. Mr. Payton, anything you would like to 
highlight that could be in addition to what we have seen?
    Mr. Payton. Yes, sir. I helped work on the Space Posture 
Review, and I read both the interim report and some early 
drafts of the final report. And just as a foreshadow, I would 
predict that the final report will have significant--much more 
substance to it than what we have seen so far.
    Mr. Turner. Great. Thank you. We will look forward to that.
    Well, you were all very, very effective. We only have 4 
minutes and 46 seconds left, which is a long time for us to get 
there.
    Mr. Chairman, thank you so much.
    Mr. Langevin. I thank the ranking member.
    With that, I again want to thank our panel today for your 
statements, for your excellent answers to the questions. And 
the members, myself included, will have additional questions 
for you that we will submit for the record, and we ask that you 
respond expeditiously in writing to those questions.
    And, again, thank you for your service to our country.
    General, in particular, I hope you will express our deep 
appreciation to the men and women who serve under you in your 
command.
    And all of you, for the people that you work with as well.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 21, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 21, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8024.001
    
    [GRAPHIC] [TIFF OMITTED] T8024.002
    
    [GRAPHIC] [TIFF OMITTED] T8024.003
    
    [GRAPHIC] [TIFF OMITTED] T8024.004
    
    [GRAPHIC] [TIFF OMITTED] T8024.005
    
    [GRAPHIC] [TIFF OMITTED] T8024.006
    
    [GRAPHIC] [TIFF OMITTED] T8024.007
    
    [GRAPHIC] [TIFF OMITTED] T8024.008
    
    [GRAPHIC] [TIFF OMITTED] T8024.009
    
    [GRAPHIC] [TIFF OMITTED] T8024.010
    
    [GRAPHIC] [TIFF OMITTED] T8024.011
    
    [GRAPHIC] [TIFF OMITTED] T8024.012
    
    [GRAPHIC] [TIFF OMITTED] T8024.013
    
    [GRAPHIC] [TIFF OMITTED] T8024.014
    
    [GRAPHIC] [TIFF OMITTED] T8024.015
    
    [GRAPHIC] [TIFF OMITTED] T8024.016
    
    [GRAPHIC] [TIFF OMITTED] T8024.017
    
    [GRAPHIC] [TIFF OMITTED] T8024.018
    
    [GRAPHIC] [TIFF OMITTED] T8024.019
    
    [GRAPHIC] [TIFF OMITTED] T8024.020
    
    [GRAPHIC] [TIFF OMITTED] T8024.021
    
    [GRAPHIC] [TIFF OMITTED] T8024.022
    
    [GRAPHIC] [TIFF OMITTED] T8024.023
    
    [GRAPHIC] [TIFF OMITTED] T8024.024
    
    [GRAPHIC] [TIFF OMITTED] T8024.025
    
    [GRAPHIC] [TIFF OMITTED] T8024.026
    
    [GRAPHIC] [TIFF OMITTED] T8024.027
    
    [GRAPHIC] [TIFF OMITTED] T8024.028
    
    [GRAPHIC] [TIFF OMITTED] T8024.029
    
    [GRAPHIC] [TIFF OMITTED] T8024.030
    
    [GRAPHIC] [TIFF OMITTED] T8024.031
    
    [GRAPHIC] [TIFF OMITTED] T8024.032
    
    [GRAPHIC] [TIFF OMITTED] T8024.033
    
    [GRAPHIC] [TIFF OMITTED] T8024.034
    
    [GRAPHIC] [TIFF OMITTED] T8024.035
    
    [GRAPHIC] [TIFF OMITTED] T8024.036
    
    [GRAPHIC] [TIFF OMITTED] T8024.037
    
    [GRAPHIC] [TIFF OMITTED] T8024.038
    
    [GRAPHIC] [TIFF OMITTED] T8024.039
    
    [GRAPHIC] [TIFF OMITTED] T8024.040
    
    [GRAPHIC] [TIFF OMITTED] T8024.041
    
    [GRAPHIC] [TIFF OMITTED] T8024.042
    
    [GRAPHIC] [TIFF OMITTED] T8024.043
    
    [GRAPHIC] [TIFF OMITTED] T8024.044
    
    [GRAPHIC] [TIFF OMITTED] T8024.045
    
    [GRAPHIC] [TIFF OMITTED] T8024.046
    
    [GRAPHIC] [TIFF OMITTED] T8024.047
    
    [GRAPHIC] [TIFF OMITTED] T8024.048
    
    [GRAPHIC] [TIFF OMITTED] T8024.049
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 21, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Air Force Space Command established 24th Air Force as 
the Air Force's operational component to STRATCOM. While there is a lot 
of attention being given to cyber, especially from a defensive 
standpoint, we are still catching up to the threat. What have we done 
in regard to cyber and what needs doing immediately in your opinion? I 
would also be interested to hear if there is anything that we can do to 
help speed our cyber defense from a policy, resources, or legal 
standpoint.
    General Kehler. The Air Force has evolved its defensive strategy 
from a static perimeter defense strategy that focused on defending the 
network to a more dynamic and operational approach that focuses on 
assuring the mission and safeguarding the network.
    Our previous strategy relied on a series of sensors located at the 
entry point to each base. These intrusion detection systems were 
leading technology 15 years ago, but are no longer suitable for 
defending the Air Force portion of the Department of Defense (DOD) 
network.
    Twenty-Fourth Air Force (24 AF) has operationalized our approach to 
network defense. They have stood up an operations center (the 624th 
Operations Center) that has the ability to plan defensive operations 
and strategies and then command and control, and assess the execution 
of the plan by 24 AF units. They are also integrating network 
intelligence capabilities with the National Security Agency (NSA) and 
the Air Force Intelligence, Surveillance, and Reconnaissance Agency 
(AFISRA), to help make us more proactive and get ahead of the threat. 
Finally, we are upgrading the Air Force Network to make it more 
securable by migrating multiple network enclaves into a single, more 
defendable, network. This will enhance our ability to patch and command 
and control our network resources.
    Mr. Lamborn. While the National Space Policy and the Space Posture 
Review have not been completed, could you talk about how we might apply 
deterrence in space to the threats we face in the 21st century? Can we 
deter others from holding our space systems at risk? How might we 
respond to attacks against our space assets, and how do we manage the 
risk of escalation? Should we adopt clear ``red lines'' or thresholds 
for attacks against our space assets? What are the merits of a 
declaratory policy that signals our intent and lays out consequences?
    Mr. Butler. The United States has not promulgated clear red lines 
for attacks against our space systems (e.g., satellite, ground, and 
space segments, and supporting links). However, our current National 
Space Policy states that our space capabilities are vital to our 
national interests, and we will preserve our rights, capabilities, and 
freedom of action in space. The Administration is reviewing the 2006 
national space policy and will update Congress accordingly on any 
changes. On March 15, 2010, the Department of Defense (DOD) provided 
Congress with an ``Interim'' Space Posture Review, which provided our 
initial thinking on national security equities in space.
    The United States reserves the right to take the full range of 
appropriate responses, including military action as consistent with the 
law of armed conflict. The United States considers space systems to 
have rights of passage through, and operations in, space without 
interference. This is consistent with U.S. law, applicable 
international law including the 1967 Outer Space Treaty, and existing 
(2006) national space policy. The United States views purposeful 
interference with its space systems as an infringement on its rights 
and will take those actions necessary to preserve its freedom of action 
in space.
    DOD is addressing the possibility that some space systems may be 
unavailable during times of crisis and war via its operational and 
contingency planning processes. Numerous war games, such as the 
``Schriever'' wargame series have shown that testing ourselves in a 
framework of diminished access to space may be an important part of our 
strategy development. Each of the Services conducted a ``day without 
space'' study to understand the impact of losing critical space 
capabilities; the results were stark and highlight the importance of 
your question.
    There may be merit in employing voluntary, non-treaty approaches 
(e.g., international rules of the road and/or a code of conduct) for 
the space domain. Over the past two years, the United States engaged in 
dialogue with European experts regarding the European Union's proposal 
for a ``Code of Conduct for Outer Space Activities.'' In addition, the 
United States is participating in a multi-year study of ``long-term 
sustainability of space activities'' within the United Nations 
Committee on the Peaceful Uses of Outer Space. This study is examining 
the feasibility of voluntary ``best practices guidelines'' to help 
reduce operational risks to all space systems; it should serve as a 
valuable cooperation opportunity with established and emerging members 
of the space-faring community and with the private sector to enhance 
spaceflight safety and preserve the space environment for future 
generations.
    In addition, DOD is continuing to develop concepts for best 
practices in space, and the Air Force is planning on conducting a 
simulation to assess the operational implications of a voluntary code 
as part of its May 2010 ``Schriever'' series wargame. The DOD is 
currently working with the office of the Director of National 
Intelligence to develop a National Security Space Strategy, which will 
further address questions of rules of the road/codes of conduct and 
declaratory policy.
    Mr. Lamborn. The Missile Defense Agency is commencing a new space 
acquisition program this year with the Precision Tracking Space System 
(PTSS). The bulk of our national security space acquisition has 
traditionally been accomplished by the Air Force and National 
Reconnaissance Office. What is the Air Force's reaction to MDA's 
rationale and justification for wishing to undertake its own space 
acquisition program?
    Mr. Payton. MDA certainly has missile warning/missile defense 
domain expertise, as well as large, complex system development 
experience. Both of these are necessary to successfully develop PTSS. 
MDA has also reached out to the Air Force to leverage our space 
acquisition expertise. MDA has included an Air Force cell inside their 
PTSS Management Structure. This Air Force cell will assist MDA in 
designing the PTSS space segment and ground segment for long term 
operations and sustainment. The Air Force is migrating towards 
commonality among the space operations centers for command and control 
of spacecraft to minimize personnel, development, and operations and 
maintenance (O&M) costs. In addition, ground antennas, communications 
links, and infrastructure must be leveraged in order to minimize 
personnel and O&M costs as well.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH

    Mr. Heinrich. A reprogramming action submitted last month would 
provide $45M for Operationally Responsive Space. Can you describe the 
benefits this reprogramming will provide our warfighters?
    General Kehler and Mr. Payton. The reprogramming will cover funds 
required for the Operationally Responsive Space-1 (ORS-1) satellite 
program: an Intelligence, Surveillance, and Reconnaissance (ISR) system 
being built in response to an urgent need communicated by CDRUSSTRATCOM 
ORS-1 will be used predominately to address urgent Joint Force 
Commander needs in the USCENTCOM Area of Responsibility (AOR).
    Mr. Heinrich. It seems that much of the funding for ORS has 
occurred through these kinds of reprogramming actions as opposed to 
year-to-year budgeting. I fear this provides a lack of certainty and 
focus for the office as a whole. Since CENTCOM has expressed that it 
will likely need more of ORS-Sat 1's unique capability after its 
lifetime, why isn't the Department budgeting for this capability in the 
out-years?
    General Kehler and Mr. Payton. Recent Operationally Responsive 
Space (ORS) reprogramming actions have addressed near-term funding to 
field the ORS-1 satellite system to meet a USSTRATCOM urgent need in 
support of CENTCOM. The CENTCOM urgent need is met by planned ORS-1 
spacecraft mission capabilities and projected lifetime. No funds for 
additional spacecraft are required for the out-years in the President's 
Budget.
    Mr. Heinrich. With the preponderance of all military assets (smart 
munitions, aircraft, tanks, naval ships, etc) relying on the Global 
Positioning System (GPS) to target, navigate and conduct its daily 
operations, one has to ask, are we ready to operate in a GPS denied 
environment?
    General Kehler and Mr. Payton. Efforts are underway on many fronts, 
through testing, simulation, exercises and gaming to develop NAVWAR 
Tactics, Techniques and Procedures (TTPs) and work through the effects 
of GPS denial. For the Air Force, our Space Aggressor and Test 
Squadrons, Weapons Schools and exercise teams are applying the most 
recent analysis and lessons learned to develop subject matter experts 
on GPS and NAVWAR to work through denial of service challenges.
    [A portion of this response is classified and is retained in the 
subcommittee files].
    Mr. Heinrich. What are the current GPS denial capabilities of 
known/perceived enemies of the United States?
    General Kehler and Mr. Payton. [The information referred to is 
classified and is retained in the subcommittee files].
    Mr. Heinrich. What counter-measures are in place and on the horizon 
to combat GPS denial?
    General Kehler and Mr. Payton. On the horizon is the ability to use 
a new military-unique signal call M-code, which is more robust and 
powerful than the current signal. With the first GPS III satellites we 
will also have additional power available on M-code to further mitigate 
jamming.
    [A portion of this response is classified and is retained in the 
subcommittee files].
    Mr. Heinrich. What impact would GPS denial have on current 
operations (strategic)?
    General Kehler and Mr. Payton. [The information referred to is 
classified and is retained in the subcommittee files].
    Mr. Heinrich. What impact would GPS denial have on the warfighter 
(tactical)?
    General Kehler and Mr. Payton. [The information referred to is 
classified and is retained in the subcommittee files].
    Mr. Heinrich. A reprogramming action submitted last month would 
provide $45M for Operationally Responsive Space. Can you describe the 
benefits this reprogramming will provide our warfighters?
    Mr. Butler. The Department of Defense (DOD) submitted a March 2010 
prior approval (PA) reprogramming action on April 8, 2010 that would 
reprogram $44.2 million in Fiscal Year (FY) 2009 Research, Development, 
Test, and Evaluation (RDT&E) funds for Operationally Responsive Space 
(ORS) (Budget Authority 4, Program Element (PE) 06040857F).
    The explanation for the ORS PA reprogramming action stated the 
funds were required to
      maintain program schedule in support of the USCENTCOM's urgent 
need for Intelligence, Surveillance, and Reconnaissance (ISR) 
capability. During FY 2010, the program will complete fabrication of 
flight hardware, integrate key components including payload and modular 
bus, complete integration and test activities, and integrate the space 
vehicle with the Minotaur launch vehicle in preparation for the planned 
November 2010 launch. Without additional funding, the program will not 
be able to meet USCENTCOM's need for the December 2010 Initial 
Operational Capability.
    All four defense committees (House Armed Services Committee, Senate 
Armed Services Committee, Senate Appropriations Subcommittee, and House 
Appropriations Defense Subcommittee (HAC-D)) supported the ORS PA. 
However, the HAC-D objected to the Global Hawk aircraft procurement 
decrease (-$48.9 million), which would have funded the ORS PA 
programming action.
    The ORS PA reprogramming action is now authorized but remains 
unfunded, which means the program will not be able to meet USCENTCOM's 
need for the December 2010 Initial Operational Capability at this time. 
We intend to submit another ORS PA reprogramming action to meet 
USCENTCOM's need in the future.
    Mr. Heinrich. It seems that much of the funding for ORS has 
occurred through these kinds of reprogramming actions as opposed to 
year-to-year budgeting. I fear this provides a lack of certainty and 
focus for the office as a whole. Since CENTCOM has expressed that it 
will likely need more of ORS-Sat 1's unique capability after its 
lifetime, why isn't the Department budgeting for this capability in the 
out-years?
    Mr. Butler. The Department of Defense (DOD) budgeted for 
Operationally Responsive Space (ORS) funding via several program 
elements (PEs) dating back to Fiscal Year (FY) 2003, when the Deputy 
Secretary of Defense (DepSecDef) directed the Air Force and the Defense 
Advanced Research Projects Agency (DARPA) in December 2002 to establish 
a joint program office to accelerate the ORS effort to meet the 2002 
ORS Mission Needs Statement (MNS) requirements for responsive, on-
demand access to, through, and from space.
    ORS funding started under DARPA in FY 2003 (PE 0603285E, Force 
Application and Launch from CONUS (FALCON)) to comply with DepSecDef 
direction. In FY 2004, the Air Force opened PE 0604855F (Operationally 
Responsive Launch) in order to meet requirements from the 2002 ORS MNS. 
In FY 2007, the Air Force closed PE 0604855F and transferred funding to 
PE 0604857F (Operationally Responsive Space (ORS)) to recognize the 
broader scope of not just responsive space launchers, but also 
satellites and ranges, necessary for an ORS system.
    ORS funding involves Budget Authority 4, Research, Development, 
Test and Evaluation (RDT&E) appropriations, which are two-year funds. 
DOD employs year-to-year budgeting and reprogramming actions in 
coordination with Congress to ensure the best use of appropriated funds 
to achieve ORS objectives. The President's FY 2011 Budget funds ORS 
($93.978 million); FY 2012-2015 out-year budget estimates average over 
$86.5 million per year, which demonstrates that DOD is planning and 
budgeting for ORS capability.
    Mr. Heinrich. With the preponderance of all military assets (smart 
munitions, aircraft, tanks, naval ships, etc) relying on the Global 
Positioning System (GPS) to target, navigate and conduct its daily 
operations, one has to ask, are we ready to operate in a GPS-denied 
environment?
    Mr. Butler. Space-based Positioning, Navigation, and Timing (PNT) 
assets provide essential, precise, and reliable information that 
underpins nearly every military system and operation. PNT also 
contributes to precision attack, thereby helping to reduce collateral 
damage, and the ability to attack from stand-off distances, thereby 
allowing friendly forces to avoid threat areas.
    The Global Positioning System (GPS) is the cornerstone of U.S. 
military PNT. The wide reliance on GPS, beyond the U.S. military, acts 
as a deterrent against attack on the constellation of GPS satellites. 
However, potential adversaries continue to seek means to counter the 
advantages we obtain from space and to use space capabilities against 
us. Navigation warfare (NAVWAR) ensures that friendly forces have 
unfettered access to PNT, while denying adversarial use of the same.
    The Department of Defense (DOD) is addressing the possibility that 
space systems, including GPS, may be unavailable during times of crisis 
and war via its operational and contingency planning processes. 
Numerous war games, such as the ``Schriever'' wargame series have shown 
that testing ourselves in a framework of diminished access to space is 
an important part of our strategy development. Each of the Services 
conducted a ``day without space'' study to understand the impact of 
losing critical space capabilities; the results were stark and 
highlight the importance of your question.
    NAVWAR was established to address increasing military dependence on 
PNT in the face of emerging threats to GPS. NAVWAR strategies include 
employing tactics and technologies to gain and maintain a PNT 
information advantage for the U.S. military and allies including the 
prevention of hostile GPS exploitation within an area of operations 
while preserving civil use of GPS outside the area of operations.
    NAVWAR is deliberate military operations aimed at gaining and 
maintaining a PNT information advantage. Desired effects are generated 
through the coordinated employment of capabilities within Information, 
Space and Cyberspace Operations. The Joint Navigation Warfare Center 
(JNWC) was established under USSTRATCOM in Fiscal Year 2008 to 
integrate and coordinate NAVWAR across the DOD. Precise PNT has become 
one of the most critical enables of 21st century warfare. Therefore, it 
is imperative that access to very precise PNT remain unimpeded. The DOD 
can provide a classified presentation discussing specific NAVWAR issues 
or concerns at the committee's convenience.
    Mr. Heinrich. What are the current GPS denial capabilities of 
known/perceived enemies of the United States?
    Mr. Butler. Global Positioning System (GPS) satellites broadcast 
navigation information on a continuous basis. The transmission has two 
levels of service--a standard positioning service (SPS) and a precise 
positioning service (PPS).
    SPS is the unencrypted civilian positioning and timing service that 
is provided to all GPS users. PPS is a more accurate, military 
positioning, velocity, and timing service available to authorized 
encrypted users (U.S. military and some allies) on a worldwide basis 
with limited anti-jam capabilities. Access to PPS is controlled, and 
permits very precise matching of receiver-generated and satellite-
generated waveforms; this allows precise measurement of the distance to 
each satellite.
    GPS has several limitations that known/perceived enemies of the 
United States may use:

    <bullet>  Adversary use/exploitation of the GPS civil signal in 
their equipment can reduce the U.S. military advantage.

    <bullet>  GPS receivers are vulnerable to jamming.

    <bullet>  Jamming GPS can adversely affect civil and first 
responder operations, as well as joint military operations within a 
geographic area. The stronger the jammer, the larger the affected area.

    <bullet>  False signals, also known as ``Spoofing.'' An adversary 
could generate false signals to mislead an authorized user with respect 
to PNT information. GPS has anti-spoofing technology designed to 
mitigate receiver compromise caused by intentionally misleading 
transmissions.

    Combatant Commanders and their subordinate joint force commanders 
should factor potential GPS jamming into their Operations Plans. The 
Department of Defense can provide a classified presentation discussing 
specific GPS denial issues or concerns at the committee's convenience.
    Mr. Heinrich. What counter-measures are in place and on the horizon 
to combat GPS denial?
    Mr. Butler. Global Positioning System (GPS) satellites broadcast 
navigation information on a continuous basis. The transmission has two 
levels of service--a standard positioning service (SPS) and a precise 
positioning service (PPS).
    SPS is the unencrypted civilian positioning and timing service that 
is provided to all GPS users. PPS is a more accurate, military 
positioning, velocity, and timing service available to authorized 
encrypted users (U.S. military and some allies) on a worldwide basis 
with limited anti-jam capabilities.
    Access to PPS is controlled by use of cryptography (encryption keys 
loaded in the terminal units). The positioning code in each level of 
service permits very precise matching of receiver-generated and 
satellite-generated waveforms. This allows for precise measurement of 
the distance to each satellite.
    GPS has anti-spoofing technology designed to mitigate receiver 
compromise caused by intentionally misleading transmissions. Future GPS 
planning enhancements include efforts to provide improved anti-jam 
capability.
    The GPS acquisition strategy calls for continued development of GPS 
user equipment (UE) to support current warfighter activities and GPS 
Modernization aimed at maturing counter-measures. The GPS UE program 
will continue Selective Availability Anti-Spoofing Module (SAASM) 
receiver production, prepare for Military code (M-code) receiver 
development, and work with platforms/users to identify requirements and 
upgrade paths for further GPS enhancements. Additionally, several anti-
jam technology efforts will be pursued to combat any potential threat 
that may deny GPS signals. The Department of Defense can provide a 
classified presentation discussing specific GPS denial issues or 
concerns at the committee's convenience.
    Mr. Heinrich. What impact would GPS denial have on current 
operations (strategic)?
    Mr. Butler. The impact of Global Positioning System (GPS) denial on 
current operations (strategic) is dependent on the frequency and 
intensity of the denial. Each GPS satellite can store information on 
board for many days. In the event the GPS constellation cannot be 
updated, accuracy will gradually degrade. The rate of degradation is 
very slow in the first few days but increases with time. This allows 
GPS to be used for several days in a current operations (strategic) 
environment even if the update capabilities are interrupted.
    GPS capabilities (e.g., space, control, and user segments) play a 
key role in military operations in all four domains (land, sea, air, 
and space). U.S. military forces use GPS for their space-based 
positioning, navigation, and timing (PNT) information. GPS assets 
provide essential, precise, and reliable information that permit joint 
forces to plan, train, coordinate, and execute operations more 
effectively.
    The Department of Defense (DOD) uses GPS time as its standard to 
provide continuous global service. Service accuracy is determined by 
receiver type, number of GPS satellites in view, and satellite 
geometric configuration. However, GPS vulnerabilities to threats such 
as adversary exploitation, jamming, lack of line-of-sight reception, 
ionospheric scintillation, tropospheric errors, and signal multipath 
issues warrant that communication systems have a back-up capability to 
acquire timing information. The DOD can provide a classified 
presentation discussing specific GPS denial issues or concerns at the 
committee's convenience.
    Mr. Heinrich. What impact would GPS denial have on the warfighter 
(tactical)?
    Mr. Butler. The impact of Global Positioning System (GPS) denial on 
the tactical warfighter is dependent on the frequency and intensity of 
the denial. Each GPS satellite can store information on board for many 
days. In the event the GPS constellation cannot be updated, accuracy 
will gradually degrade. The rate of degradation is very slow in the 
first few days but increases with time. This allows GPS to be used for 
several days in a tactical environment even if the update capabilities 
are interrupted.
    GPS capabilities (e.g., space, control, and user segments) play a 
key role in military operations in all four domains (land, sea, air, 
and space). U.S. military forces use GPS for their space-based 
positioning, navigation, and timing (PNT) information. GPS assets 
provide essential, precise, and reliable information that permit joint 
forces to plan, train, coordinate, and execute operations more 
effectively. GPS gives the joint force the capability to improve 
communications security and effectiveness.
    The Department of Defense (DOD) uses GPS time as its standard to 
provide continuous global service. Service accuracy is determined by 
receiver type, number of GPS satellites in view, and satellite 
geometric configuration. However, GPS vulnerabilities to threats such 
as adversary exploitation, jamming, lack of line-of-sight reception, 
ionospheric scintillation, tropospheric errors, and signal multipath 
issues warrant that communication systems have a back-up capability to 
acquire timing information. The DOD can provide a classified 
presentation discussing specific GPS denial issues or concerns at the 
committee's convenience.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
